                                                    OFFICE OF INSPECTOR GENERAL

                                                                              MEMORANDUM




DATE:          April 10, 2001

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Internet Privacy and Web Cookies

The Office of Inspector General (OIG) has completed a Special Review of Internet Privacy and Web
Cookies. A copy of our Special Review Report, entitled “Special Review of Internet Privacy and Web
Cookies” is attached. This review was required by Section 646 of the “Treasury and General
Government Act, 2001” (the Act). Section 646 of the Act states that “Not later than 60 days after the
date of enactment of this Act, the Inspector General of each department or agency shall submit to
Congress a report that discloses any activity of the applicable department or agency relating to—

   (1) the collection or review of singular data, or the creation of aggregate lists that include
       personally identifiable information, about individuals who access any Internet site of the
       department or agency; and

   (2) entering into agreements with third parties, including other government agencies, to
       collect, review, or obtain aggregate lists or singular data containing personally
       identifiable information relating to any individual's access or viewing habits.”

Following passage of this legislation, representatives of the Department of Defense Office of Inspector
General (DOD IG) met with congressional staff to obtain an understanding of the intent of Section 646
and to discuss expectations regarding the parameters of the review and individual reports. Based on
these discussions, the DOD IG prepared and distributed a list of agreed upon questions relating to
Internet Privacy and Web Cookies. A listing of the agreed upon questions is included as Appendix 1 to
our Special Review Report.

The objectives of this Special Review were to evaluate Commission practices related to Internet Privacy
and Web Cookies and to provide a report to Congress on these practices. Specific objectives of the
review were to examine: 1) the purpose and use of cookies on FCC web pages, 2) the use of other
Internet information collection devices, such as web bugs, 3) what categories of information are
collected on the FCC web site, 4) what personal information is collected when
               Special Review of Internet Privacy and Web Cookies



                               Table of Contents


                                                                        Page


EXECUTIVE SUMMARY                                                         1


REVIEW OBJECTIVE                                                          3


REVIEW SCOPE                                                              3


BACKGROUND                                                                3


OBSERVATIONS                                                              4


APPENDIX 1   Document entitled “Privacy Issues for IGs to Examine”       11
             Resulting from Discussions between the Inspector General
             Community and Congressional Staff

APPENDIX 2   Management Response                                         12
EXECUTIVE SUMMARY

The Federal Communications Commission (FCC) is increasingly using the Internet to
conduct business and to disseminate information. For example, the Commission
currently maintains several internet-based electronic filing (e-filing) systems that allow
the public to submit and/or review different types of filings related to FCC proceedings,
rulemakings, tariffs, and official forms. However, although the use of the Internet for
commerce presents opportunities to improve the efficiency of Commission operations, it
also presents new and unique privacy challenges. Federal agencies are required to protect
an individual’s right to privacy when they collect personal information1 including a
regulation on the use of cookies 2 . Cookies are small pieces of information that are stored
on a user’s web browser3 that can be manipulated to surreptitiously collect personal
information.

On December 14, 2000, Congress passed the “Treasury and General Government Act,
2001” (the Act). Section 646 of the Act (Section 646) states that “Not later than 60 days
after the date of enactment of this Act, the Inspector General of each department or
agency shall submit to Congress a report that discloses any activity of the applicable
department or agency relating to—

        (1) the collection or review of singular data, or the
     creation of aggregate lists that include personally
     identifiable information, about individuals who access any
     Internet site of the department or agency; and

       (2) entering into agreements with third parties, including
     other government agencies, to collect, review, or obtain
     aggregate lists or singular data containing personally
     identifiable information relating to any individual's access or
     viewing habits. 4 ”

Following passage of this legislation, representatives of the Department of Defense
Office of Inspector General (DOD IG) met with congressional staff to obtain an
understanding of the intent of Section 646 and to discuss expectations regarding the
parameters of the review and individual reports. Based on these discussions, the DOD IG
prepared and distributed a list of agreed upon questions relating to Internet Privacy and
Web Cookies. In addition, the due date for the report to congress was extended to May
2001. Please refer to Appendix 1, entitled “Privacy Issues for IGs to Examine”, for a
copy of this list of the agreed upon questions.


1
    U.S. Office of Management and Budget, Memorandum 99-18, Privacy Policies on Federal Web Sites, June 2, 1999, p. 1.
2
     U.S. Office of Management and Budget, Memorandum 00-13, Privacy Policies and Data Collection on Federal Web Sites, June
    22, 2000, p. 1.
3
    Cookies, 1998, URL: http://www.cookiecentral.com/cm002.htm (February 13, 2001).
4
     H.R. 5658, URL: http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=106_cong_bills&docid=f:h5658ih.txt. (February
    15, 2001).



                                                             1
The objectives of this Special Review were to evaluate Commission practices related to
Internet Privacy and Web Cookies and to provide a report to Congress on these practices.
Specific objectives of the review were to examine: 1) the purpose and use of cookies on
FCC web pages, 2) the use of other Internet information collection devices, such as web
bugs, 3) what categories of information are collected on the FCC web site, 4) what
personal information is collected when people e-mail or submit questions to the agency,
including how this information is protected, and 5) the distribution of personally
identifiable information to any party outside of government for any purpose. The scope
of our review was limited to obtaining answers to the five questions that resulted from the
discussions between the DOD IG and the congressional staff and performing limited
testing to verify the accuracy of Commission responses.

During our limited review, we found that Commission was generally complying with
Federal privacy laws and regulations. We identified two issues that needed corrective
action. We identified one issue where the hyperlink text to the Internet privacy policy
web page could have been more clearly identified. When we informally notified the
Internet Webmaster, this problem was corrected. We reviewed the appropriate web sites
and confirmed that the FCC Webmaster implemented the change. The second issue
related to the International Bureau Filing System’s (IBFS) nondisclosure of its use of
cookies. When we notified the IBFS system owner of this observation, the system owner
stated that IBFS would disclose its use of cookies by adding a link to the Commission’s
Privacy Notice.

In a response to the draft report, the Chief Information Officer (CIO) stated that “the
report provides a comprehensive response to the questions asked during your review.”
The CIO suggested some minor edits, all of which we have incorporated into our report.
We have included a copy of the joint response in its entirety as Appendix 2 to this report.




                                             2
REVIEW OBJECTIVE

The objectives of this Special Review on Internet Privacy and Web Cookies were to
evaluate Commission practices related to Internet Privacy and Web Cookies and to
provide a report to Congress on these practices. Specific objectives were to examine: 1)
the purpose and use of cookies on FCC web pages, 2) the use of other Internet
information collection devices, such as web bugs, 3) what categories of information are
collected on the FCC web site, 4) what personal information is collected (and not
disclosed) when people email or submit questions to the agency, and 5) the distribution of
personally identifiable information to any party outside of government for any purpose.

To accomplish the objectives of the Special Review, we sent questionnaires and e-mails
to the Chief Information Officer, the FCC Webmaster, and selected Bureau and Office
personnel. We examined selected FCC Internet web pages for privacy statements. We
analyzed the hyperlink text connecting appropriate Commission web pages to the pages
containing the privacy information to determine if the privacy information was “clearly
labeled and easily accessed 5 ” as required by Office and Management and Budget (OMB)
Memorandum 99-18.

REVIEW SCOPE

This project was conducted as a special review. A special review is meant to be a quick
study of a process and, as such, was not conducted in accordance with all professional
auditing standards. A special review was conducted in this case because of the time
constraints imposed by the legislation requiring the review.

The scope of our review was limited to obtaining answers to the five questions that
resulted from the discussions between the DOD IG and the congressional staff and
performing limited testing to verify the accuracy of Commission responses. In addition,
we reviewed selected Commission Internet web pages that aided us in responding to the
congressional inquiry. No Commission Intranet sites were examined as part of this
special review.

The special review was conducted at the Commission headquarters facility located at 445
12th Street, Southwest, Washington, DC. Fieldwork on this special review was conducted
from February 5, 2001 through March 16, 2001.

BACKGROUND

Federal agencies are required by law to protect an individual’s right to privacy when an
agency collects personal information. The Privacy Act of 1974, as amended, is the
primary law regulating the federal government’s collection and maintenance of personal
information. Other laws of general application that apply to the protection of personal
information collected by the Federal government are the Freedom of Information Act

5
    U.S. Office of Management and Budget, Memorandum 99-18, Privacy Policies on Federal Web Sites, June 2, 1999, p. 1.



                                                             3
(FOIA), the Computer Security Act of 1987, the Paperwork Reduction Act of 1995, and
the Computer Matching and Privacy Protection Act of 1988 6 .

OMB circulars and memorandums provide direction as to how federal agencies are to
implement these privacy laws. Appendices I and III of OMB Circular A-130 provide
advice to executive departments and agencies on protecting personal information. On
June 2, 1999, OMB issued Memorandum M-99-18 directing agencies to post privacy
policies on federal Web sites. On June 22, 2000, OMB issued Memorandum M-00-13
providing additional guidance relating to the collection of information by federal Web
sites 7 . These OMB documents add details that assist departments and agencies in
implementing the laws related to privacy in the Internet environment.

Recently, Congress added additional Web privacy requirements. As part of the Treasury
and Appropriations Act of 2001, Congress included a section on Web privacy. This
provision, Section 646 of the Treasury and Appropriations Act of 2001 requires the
Inspector General of each department or agency to submit to Congress a report that
discloses any activity of the applicable department or agency relating to: (1) the
collection or review of singular data, or the creation of aggregate lists that include
personally identifiable information, about individuals who access any Internet site of the
department or agency; or (2) entering into agreements with third parties, including other
government agencies to collect, review or obtain aggregate lists or singular data
containing personally identifiable information relating to any individual’s access or
viewing habits for governmental and non-governmental Internet sites 8 .

OBSERVATIONS

On December 14, 2000, Congress passed the “Treasury and General Government Act,
2001”. Section 646 of the Act states that “Not later than 60 days after the date of
enactment of this Act, the Inspector General of each department or agency shall submit
to Congress a report that discloses any activity of the applicable department or agency
relating to—

        (1) the collection or review of singular data, or the
     creation of aggregate lists that include personally
     identifiable information, about individuals who access any
     Internet site of the department or agency; and

        (2) entering into agreements with third parties, including
      other government agencies, to collect, review, or obtain
      aggregate lists or singular data containing personally
      identifiable information relating to any individual's access or

6
     United States General Accounting Office, Internet Privacy, Agencies’ Efforts to Implement OMB’s Privacy Policy
    (GAO/GGD-00-191, September 5, 2000), p. 47.
7
    Ibid.
8
     HR 5658, Treasury and General Government Appropriations Act, 2001, December 14, 2000, URL: URL:
    http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=106_cong_bills&docid=f:h5658ih.txt. (February 15, 2001).



                                                              4
      viewing habits. 9 ”

Following passage of this legislation, representatives of the DOD IG met with
congressional staff to obtain an understanding of the intent of Section 646 and to discuss
the parameters of the review and report. Based on these discussions, the DOD IG
prepared and distributed a list of agreed upon questions relating to Internet Privacy and
Web Cookies. In addition, the due date for the report to congress was extended to May
2001. Please refer to Appendix 1, entitled “Privacy Issues for IGs to Examine”, for a
copy of this list of the agreed upon questions.

This special review first focused on responding to the five questions on web privacy that
resulted from discussions between the DOD IG and congressional staff. Those questions
are restated with the FCC’s response below. For each question, we obtained input from
Commission Bureaus and Offices and prepared a consolidated response. In some cases,
we have added background information and information to clarify Bureau and Office
responses (e.g., description of session cookies versus persistent cookies). Where
appropriate, we have provided a brief description of the steps taken to verify Commission
responses. In addition to providing a response to the five (5) questions that were agreed
upon between DOD IG staff and congressional staff, we are reporting on another
observation we made on web privacy at the FCC.

Responses to the Agreed Upon Questions and OIG Comments

1. Cookies:
a. Follow up on GAO report last fall and their ongoing work..

FCC Response and OIG Comments: The September 2000, report by GAO on Internet
Privacy stated that when an agency uses cookies, they must “make clear” that they are
using cookies. OMB requires it to disclose the following information in their privacy
policies about the cookies and the information they collect:

     1. What information is collected;
     2. Why the information is collected; and
     3. How the information will be used 10 .

To determine if the Commission complies with these regulations, we first determined if
the FCC had web pages that used cookies. Then we examined the Commission’s Privacy
Notice to determine compliance with OMB regulations.

The FCC uses session cookies to support the Universal Licensing System (ULS),
Consolidated Database System (CDBS), Broadband Licensing System (BLS), Antenna
Structure Registration, International Bureau Filing System (IBFS),


9
     Ibid.
10
     United States General Accounting Office, Internet Privacy, Agencies’ Efforts to Implement OMB’s Privacy Policy (GAO/GGD-
     00-191, September 5, 2000), p. 12.



                                                             5
and Auctions applications. These applications use session cookies only to maintain state.
The session cookies are erased when the users web browser is closed. A transaction or
session, may involve a number of such information exchanges, each followed by a break
in the connection. In order to maintain the state (a user’s location during a web session)
of a transaction, the FCC web sites may place session cookies in memory allocated to
users' browsers. Session cookies permit the users to more efficiently perform
transactions when they are connected to the FCC web site. The session cookie may last
throughout the course of the transactions or sessions. However, session cookies are
erased from the users' systems when they close their browsers. No cookie remains on the
user’s computer.

These session cookies collect one piece of information, the session id. This is used to
maintain state. These cookies are erased from the user’s system when they close their
Internet browsers.

No persistent cookies are used. Persistent cookies are those cookies that typically stay in
a user’s browser for long periods of time 11 , even after the user web browser is closed.
Persistent cookies are often used to track and gather personal data.

As part of our special review, we examined the ULS and the Antenna Structure
Registration applications and confirmed that the applications were using only session
cookies. We also searched the hard drives of the computers used to access these systems
and could not find any evidence of these session cookies.

b. Where GAO found cookies being used and not disclosed, IG should go behind
   that and ask what information is being collected and why.

FCC Response and OIG Comments: Cookie usage is disclosed to users in the Privacy
Notice section of the Disclosure Statement accessible from the FCC’s home page,
www.fcc.gov/disclaimers.html. We verified that the disclosure statement is accessible
from the FCC’s home page. We also verified that the Privacy Notice is linked by a
hypertext link to the Wireless Telecommunications Branch (WTB) home page,
www.fcc.gov/wtb, the e-filing home page, the Automated Reporting Management
Information System (ARMIS) page, www.fcc.gov/ccb/armis, the Bureau/Office page,
www.fcc.gov/bureaus.html, the Commissioners’ home page,
www.fcc.gov/commissioners.html, the Major Initiatives page, www.fcc.gov/major.html,
and the Releases and Updates page, www.fcc.gov/releases.html. The WTB and the e-
filing home pages are portals used to access the ULS, Antenna Structure Registration,
and Auctions applications.

The Commission’s Privacy Notice specifically addresses the issues posed in this question
(i.e. where are cookies being used and not disclosed, and what information is being
collected and why). The text of the Commission’s Privacy Notice is printed below.



11
     Webopedia, Cookies, URL: http://webopedia.internet.com/TERM/c/cookie.html. (March 16, 2001).



                                                       6
     Privacy Notice

     The Federal Communications Commission provides this Internet site as a public
     service. We do not obtain personally identifying information about you when you
     visit this site unless you choose to provide such information to us.

     The FCC posts a Privacy Act notice at those places on this site where the
     Commission needs to collect any individually identifiable information for use by the
     FCC.

     Any information collected within the context of your email inquiry or comment is used
     only for the expressed purpose of responding to your inquiry or comment. We collect
     personally identifiable information only if specifically and knowingly provided by
     you.

     For site management, information is collected for statistical purposes. This
     government computer system uses software programs to create summary statistics,
     which are used for purposes such as assessing what information is of most and least
     interest, determining technical design specifications, and identifying system
     performance or problem areas. This information is not expressed in any form that
     would reveal personally identifiable information.

     The FCC provides numerous online software programs that support the Universal
     Licensing System, Antenna Structure Registration, Auctions, and other FCC
     functions. When a user visits the FCC web site to perform a transaction (sending an
     application, initiating a query, receiving a query response, etc), the web server
     receives data or sends a response and then may send a cookie before breaking the
     connection with the user. A cookie is a small piece of software that is placed by a web
     server on users’ personal computers and is then used to personalize the site when a
     visitor returns. A transaction or session, may involve a number of such information
     exchanges, each followed by a break in the connection. In order to maintain the state
     (where one is in the process) of a transaction, the FCC web sites may place session
     cookies in memory allocated to users’ browsers. Session cookies permit the users to
     perform transactions as if they were connected to the FCC web site throughout the
     course of the transactions or sessions. Session cookies are erased from the users’
     systems when they close their browsers 12 .

As part of our special review, we examined the IBFS application. During our review, a
reply from the International Bureau disclosed that the IBFS application uses session
cookies to maintain system state. However, we determined that IBFS does not disclose
their use in its web pages or provide a link to a privacy notice. When we notified the
IBFS system owner of this nondisclosure issue, the system owner stated that IBFS would
disclose its use of cookies by adding a link to the Commission’s Privacy Notice.


12
      Federal Communications Commission, Policies and Notices, November 6, 2000, URL:
     http://www.fcc.gov/disclaimers.html. (February 15, 2001).



                                                           7
2. Other information-collection devices (Web bugs, etc.):
a. Is personal information being collected and not disclosed?

FCC Response and OIG Comments: Commission Bureaus and Offices indicate that
they do not use other collection devices such as web bugs. Our limited review of
Commission web pages did not disclose any use of web bugs to collect personal
information.

3. General information collection:
a. In what instances do agencies collect personally identifiable information (e.g.,
   names, addresses, phone, cell and fax numbers, social security numbers) via
   Web sites (including information collected with the help of cookies or Web bugs,
   as well as information collected when Web site users submit questions using e-
   mail or other means) without disclosure? In such instances, exactly what
   information is being collected and why?

FCC Response and OIG Comments: The FCC collects names, addresses, phone
numbers, faxes, for its electronically and manually filed licensing, fee filing, complaint,
and comment forms. The Commission Registration System (CORES) and the ULS
collect taxpayer identification numbers (TINs). TINs are nine digit numbers
corresponding to social security numbers (SSNs) and employer identification numbers
(EINs). All information is provided on a voluntary basis for business applications and tin
specifically for the Debt Collection Act of 1996.

Cookies are used only to maintain session state, not to collect any information, including
personally identifiable information. Persistent cookies are not used.

b. In such instances, where is the information stored, and are the archives
   accessible to the public. Are these archives FOIA-able?

FCC Response and OIG Comments: Commission Bureaus and Offices indicate that all
electronic information is stored in the FCC’s databases and computers, either owned by
the FCC or managed by its contractors. All licensing information, with the exception of
TIN, is accessible to the public via web applications and license searches. All data, with
the exception of TIN, can be obtained through a process established by the Freedom of
Information Act (FOIA).

4. Public questions to agencies:
a. Is personal information collected (and not disclosed) when people email or
   submit questions to the agency ? This issue applies only to personal information
   collected for questions submitted by e-mail or via the Internet.

FCC Response and OIG Comments: Five (5) FCC Bureaus and Offices replied that
they do not collect personal information, either by e-mail or through the World Wide
Web. Eight (8) others replied that they collect some personal information. Those
Bureaus and Offices that collect personal information indicate that this information is



                                             8
collected by the sites while performing day to day Commission activities such as license
filing via the Internet or responding to e-mail queries by consumers. This information is
collected for valid business related purposes such as implementing Commission policies
and procedures and providing consumers with accurate and timely information to resolve
their complaints in an effective and amicable manner.

Personal information, such as name or address, may be disclosed, in some instances, as
part of the administration of the Commission's policies, programs and rules. For
example, the name and address of the holder of a license may be disclosed electronically
as part of the Commission’s policy to allow the general public, members of the industry,
and state regulatory agencies, among others, to have access to this information.
Electronic access is an outgrowth of the Commission’s policy of allowing public access
to this information through such mechanisms as the Commission Reading Room.
Sensitive information, such as TIN information, is not disclosed. All data, with the
exception of TIN information, can be obtained via the FOIA process.

The Commission’s e-filing Internet applications collect personal data, including names
and addresses. For example, the electronic tariff filing system (ETFS) of the FCC’s
Common Carrier Bureau (CCB) collects information on filers of tariffs. CCB classifies
ETFS data as tariffs, not as "questions to the agency." Tariffs are filed so that the public
can examine and challenge them. Therefore, it is not possible for the ETFS filers to
believe that the information would be held in confidence. Other licensing applications
are also filed with the knowledge the public can examine and often challenge them.

5. Third parties
a. Provide examples of agency/administration agreements, if any, with third parties
   to collect data containing personally identifiable information relating to an
   individual's access or viewing habits? If so, can you provide us details about
   such agreements?

FCC Response and OIG Comments: Commission Bureaus and Offices report that they
do not have any agreements with third parties to collect data containing personally
identifiable information relating to an individual's access or viewing habits.

During our special review, we did not find any instances of agency/administration
agreements with third parties to collect data containing personally identifiable
information relating to an individual's access or viewing habits.

b. Disclose any instances where personally identifiable information was sold, given
away, or distributed by government agencies (or their contractors) to any party
outside of government (including contractors) for any purpose, and find out why
such information was distributed.

FCC Response and OIG Comments: Commission Bureaus and Offices did not report
any instances where personally identifiable information was sold, given away, or




                                              9
distributed by government agencies (or their contractors) to any party outside of
government (including contractors) for any purpose.

During our special review, we did not find any instances where personally identifiable
information was sold, given away, or distributed by government agencies (or their
contractors) to any party outside of government (including contractors) for any purpose.

Related Web Privacy Observation

In general, the Commission is complying with the web privacy policies as enunciated in
the applicable public laws and OMB documents. The Privacy Statement found at
http://www.fcc.gov/disclaimers.html meets OMB standards. Also, the FCC has limited
its use of cookies and other programs to the acceptable, non-intrusive session cookies.

However, we found one problem with the labeling of the privacy statement on the FCC's
home page and other pages, such as the e-filing page. Appendix I to OMB Memorandum
99-18 requires that privacy policies must be clearly labeled and easily accessed when
someone visits a web site. In a September, 2000 report on Internet privacy, the GAO
defined the term "clearly labeled.” The GAO stated that hypertext links to Privacy
Statements must include the word "privacy13 .” The hypertext links to the FCC's Privacy
Statement, such as the one on the Commission's home page, do not use the word
"privacy." We are suggesting that these links incorporate the word privacy in their text,
A possible modification could read 'Web Site Policies and Notices, including Privacy.'

We notified the Webmaster of our observation. He immediately changed the wording on
the home page to read "Web Site Policies, Notices & Privacy Statement" and stated that
he will change it on the rest of the non-bureau/office-specific pages as soon as possible.
Also, he will request that the bureaus make a similar change to the pages that they
control.

On February 15, 2001, we confirmed that the hyperlink text to the privacy statement
notice read "Web Site Policies, Notices & Privacy Statement." With the implementation
of the revised wording on the FCC’s home page, we consider this matter to be closed.




13
     United States General Accounting Office, Internet Privacy, Agencies’ Efforts to Implement OMB’s Privacy Policy (GAO/GGD-
     00-191, September 5, 2000), p. 37.



                                                             10
                                                                              Appendix 1


                    PRIVACY ISSUES FOR IGs TO EXAMINE

A. Cookies

   1. Follow up on GAO report last fall and their ongoing work.

   2. Where GAO found cookies being used and not disclosed, IGs should go behind
      that and ask what information is being collected and why.

B. Other information-collection devices (Web bugs, etc.)

   1. Is personal information being collected and not disclosed?

C. General information collection

   1. In what instances do agencies collect via Web sites personally identifiable
      information (e.g., names, addresses, phone, cell and fax. numbers, social security
      numbers) by any means when that is not disclosed? In such instances, exactly
      what information is being collected and why?

   2. In such instances, where is the information stored, and are the archives accessible
      to the public? Are these archives FOIA-able?

D. Public questions to agencies

   1. Is personal information collected (and not disclosed) when people email or submit
      questions to the agency?

E. Third parties

   1. Provide examples of agency/administration agreements with third parties to
      collect data containing personally identifiable information relating to an
      individual’s access or viewing habits.

       1. What happened at the Forest Service? (See GAO report).
       2. What happened at ONDCP?

   2. Disclose any instances where personally identifiable information was sold, given
      away, or distributed by government agencies (or their contractors) to any party
      outside of government (including contractors) for any purpose, and find out why
      such information was distributed.




                                           11
